HHS/OIG-Audit--"Operation Restore Trust Skilled Nursing Facility Review Conducted at Washington Manor, Miami, Florida, (A-04-96-01135)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at Washington Manor, Miami, Florida," (A-04-96-01135)
February 28, 1997
Complete
Text of Report is available in PDF format (1.04 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from January 1994 through December 31, 1995.
The Operation Restore Trust reviewers questioned $220,483 in charges reported for 30 of the 32 beneficiaries in our sample.
This amount comprises $218,000 related to physical, occupational, respiratory and speech therapy; $1,355 in laboratory
charges; and $1,138 for pharmacy and x-ray charges. Therefore, we are recommending an adjustment of the above charges.
In addition, we request that a focused review of occupational therapies and the use of standing orders for all rehab therapies
be conducted by the fiscal intermediary and State agency in order to recoup overpayments made to this skilled nursing facility
and to implement corrective action by the facility.